           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  ASSIGNMENT OF SOCIAL SECURITY
     NUMBERS TO NONCITIZENS
        WITH FIANCÉ VISAS

    May 2008      A-08-07-17044




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      May 6, 2008                                                                       Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Assignment of Social Security Numbers to Noncitizens with Fiancé Visas
           (A-08-07-17044)


           OBJECTIVE

           Our objective was to assess the Social Security Administration’s (SSA) process for
           assigning Social Security numbers (SSN) to noncitizens with fiancé visas.

           BACKGROUND

           Each year, thousands of U.S. citizens petition the Department of Homeland Security
                                                                                           1
           (DHS) to allow their foreign fiancé to visit the United States under a K-1 visa. The
           foreign national must marry the petitioner within 90 days of arriving in the United States
           or leave. 2 After marriage, noncitizens with K-1 visas may adjust their temporary
           immigration status to a permanent resident. 3

           Under §205(c)(2)(B)(i)(I) of the Social Security Act, SSA is required to assign SSNs "to
           aliens at the time of their lawful admission to the United States either for permanent
           residence or under other authority of law permitting them to engage in employment in
           the United States. . . .” Because Federal law authorizes K-1 visa holders to work
                                         4
           incident to their visa status, K-1 visa holders are eligible for SSNs.



           1
            The Immigration and Nationality Act (INA) provides a nonimmigrant visa classification "K-1" for aliens
           coming to the United States to marry American citizens and reside here.
           2
            The INA, as amended, Public Law Number 82-414, § 101(a)(15)(K)(i), 8 U.S.C. § 1101(a)(15)(K)(i); see
           also 22 C.F.R. § 41.81(a).
           3
             If K-1 visa holders marry someone other than the petitioner, DHS denies adjustment of status. For those
           who marry the petitioner and apply for adjustment of immigration status, DHS grants “conditional” Lawfully
           Admitted Permanent Resident status. The conditional status remains for 2 years, and, if, at that time, the
           individual has met the required conditions, DHS grants him/her permanent residence.
           4
               8 C.F.R. §§ 214.2(k)(9) and 274a.12(a)(6).
Page 2 - The Commissioner


In addition, the Code of Federal Regulations (C.F.R.) requires that K-1 visa holders who
seek employment must also apply for an Employment Authorization Document (EAD)
           5
with DHS. However, SSA policy states that an unexpired I-94 (Arrival/Departure
         6
Record) with a “K-1” admission code confirms work authorization for a foreign fiancé,
and therefore SSA does not require that K-1 visa holders present an EAD when
                      7
applying for an SSN. The Agency established its policy based on the Immigration and
Naturalization Service’s, now DHS, guidance in 1998. At that time, DHS could not
always process and issue an EAD to K-1 visa holders before their 90-day stay in the
United States expired. DHS sent a memorandum to SSA clarifying which evidentiary
documents established K-1 visa holders’ work authorization. DHS’ memorandum
advised SSA that “Evidence of K-1 status includes an unexpired Form I-94 showing
admission as a K-1 nonimmigrant with an admission period of 90 days or an EAD
referring to INS regulations at 8 CFR 274a.12(a)(6).” [Emphasis added]

Noncitizens with K-1 visas applying for an original SSN must complete, sign and submit
an Application for a Social Security Card (Form SS-5) at an SSA field office and provide
acceptable evidence of (1) age, (2) identity, and (3) work-authorized immigration status.
SSA policy requires that field office personnel verify these individuals’ immigration
status with DHS before processing the SSN application. 8 In Calendar Year 2005, SSA
assigned approximately 14,000 original SSNs to K-1 visa holders.

To accomplish our objective, we obtained a data extract of 10,293 original SSNs SSA
assigned to K-1 visa holders from April 1 through December 31, 2005. From this
population, we randomly selected a sample of 250 records to determine whether the
K-1 visa holder (1) married and changed his/her immigration status, (2) departed the
United States or (3) remained in the United States beyond the date DHS authorized.
We also reviewed SSA’s policies and procedures for assigning SSNs to K-1 visa
        9
holders and obtained information from DHS and Department of State representatives
regarding our 250 sample records. Because the subject of this report involves
immigration enforcement and visa-related issues, we plan to share our report with DHS
and Department of State Inspectors General. Appendix B includes a detailed
description of our scope and methodology, and Appendix C contains our sample results
and projections.




5
    Id.
6
 Noncitizens entering the United States complete an I-94 and DHS officials stamp, sign, and code
noncitizens’ documents with an admission code and date of expiration.
7
    Program Operations Manual System (POMS), section RM 00203.500C.1.
8
    POMS, sections RM 00202.001, RM 00203.001C.1, RM 00203.500 and RM 00203.720.
9
    POMS, section RM 00203.
Page 3 - The Commissioner


RESULTS OF REVIEW
We believe SSA’s policy, which permits the Agency to assign SSNs to K-1 visa holders
without requiring that they present an EAD, creates opportunities for SSN misuse.
Additionally, we are concerned that having an SSN makes it easier for K-1 visa holders
who do not marry to remain in the country after their immigration status expires. DHS
and Department of State personnel with whom we spoke told us K-1 nonimmigrant
visas have traditionally been problematic because of the misuse and fraud associated
with this category. Based on our sample analysis, we estimate that SSA assigned
about 371 SSNs during our audit period to K-1 visa holders who did not marry their
American petitioner and remained in the United States beyond the date DHS authorized
(see Appendix C, Table 1). 10 Furthermore, some of these individuals had wages
posted to their earnings records after their immigration status expired. 11 While DHS
regulations authorize K-1 visa holders to work and the Social Security Act allows
K-1 visa holders to obtain an SSN before they marry, we question the prudence of
regulations that allow SSN assignment to K-1 visa holders who may only be in the
country for 90 days or less and choose not to marry their American petitioner.

SSA instituted policies and procedures to prevent improper SSN assignment. Yet, they
can only be effective if personnel processing SSN applications comply with them. Of
the 250 K-1 SSN applications we reviewed, 17 (7 percent) contained compliance errors.
As such, we estimate personnel did not fully comply with SSA’s policies and procedures
when processing SSN applications for about 700 noncitizens with K-1 fiancé visas (see
Appendix C, Table 2). Occurrences of noncompliance included SSA field office
personnel (1) improperly assigning original SSNs when K-1 visa holders’ immigration
status had expired or would expire within 14 days and (2) incorrectly coding the
citizenship/work authorization status of K-1 applicants.

SSA NEEDS TO ASSESS ITS POLICY AND THE IMPACT OF ASSIGNING SSNS TO
K-1 VISA HOLDERS

We believe SSA should strengthen its evidentiary requirements for assigning SSNs to
K-1 visa holders. Although DHS regulations authorize K-1 visa holders to work based
on their visa status, DHS regulations also state that an EAD is evidence of their work
authorization. 12 However, SSA does not require that K-1 visa holders present an EAD
as proof of their work authorization. The Agency established this policy based on a
1998 memorandum from DHS. According to SSA, DHS advised that its processing
time for issuing an EAD hindered K-1 visa holders’ SSN attainment before their
authorized 90-day stay in the United States expired. As such, we believe the Agency

10
  We based our projection on the nine K-1 visa holders in our sample who did not marry or married
someone other than the petitioner and remained in the country after their immigration status expired.
11
  Two K-1 visa holders had wages in Calendar Year 2006—the year after their immigration status
expired.
12
     8 C.F.R. §§ 214.2(k)(9) and 274a.12(a)(6).
Page 4 - The Commissioner


should seek clarification from DHS to determine whether Federal law requires an EAD
as proof of K-1 visa holders’ work authorization—and, if so, the Agency should correct
its policy accordingly.

We acknowledge law and DHS regulations authorize K-1 visa holders to work. We also
realize the Social Security Act requires that SSA assign SSNs to those who are eligible
to receive one. However, we believe assigning an SSN to K-1 visa holders who choose
not to marry makes it easier for them to remain in the country after their immigration
status expires. DHS and Department of State personnel with whom we spoke
acknowledged K-1 visas are problematic because some individuals commit marriage
fraud or overstay their authorized period of admission. In fact, a consular officer in the
Department of State’s Fraud Preventions Program stated many K-1 visa applicants do
not marry the petitioner. Additionally, DHS’ Immigration and Customs Enforcement
initiated almost 200 administrative cases involving K-1 visa holders who violated or may
have violated the conditions of their immigration status by committing marriage fraud or
                                                             13
remaining in the United States beyond the date authorized. Furthermore, some of the
overstayers DHS identifed continued working after their immigration status expired.

Unauthorized work by nonimmigrants may require that the Agency pay them future
benefits. In addition, nonimmigrants who overstay their authorized periods of admission
can potentially affect homeland security because they may obtain employment in
sensitive areas, such as airports, hospitals, or mass transit systems. 14

Although our sample review found K-1 visa holders generally fulfilled their visa
requirements by marrying the petitioner or departing, not all did. Of the 250 SSN
applications we reviewed, DHS could not verify the status or departure for 9 (4 percent)
K-1 visa holders. 15 Consequently, we believe these individuals may have remained in
the United States beyond their DHS-authorized stay. As such, we estimate about
371 K-1 visa holders who obtained an SSN during our audit period overstayed their
admission period. Of the nine who overstayed, we determined that some did not work
during their authorized period of admission, while others worked after their immigration
                16
status expired. Additionally, two of these K-1 visa holders married someone other
than the petitioner, and DHS denied them an adjustment of their immigration status.

13
  DHS Immigration and Customs Enforcement’s list was not all-inclusive but contained 183 names of
K-1 visa holders who violated, or may have violated, the conditions of their immigration status from
May 2003 to December 2005. Although DHS representatives stated these individuals posed the highest
potential risk to national security, they also said they did not represent the K-1 population.
14
  SSA/OIG report, Impact of Nonimmigrants Who Continue Working After Their Immigration Status
Expires (A-08-05-15073), September 2005.
15
   Of the remaining 250 sample K-1 visa holders, 234 (about 94 percent) had married and adjusted or
were in the process of adjusting their immigration status with DHS. Furthermore, DHS granted
three K-1 visa holders asylum and told us that four K-1s departed the United States.
16
   Of the nine K-1 visa holders who remained in the United States beyond their DHS-authorized stay,
three (33 percent) had earnings in 2006. However, only two of the three had earnings after their
immigration status expired.
Page 5 - The Commissioner


Finally, one K-1 visa holder may have presented SSA an invalid marriage certificate
because the issuing Bureau of Vital Statistics told us the marriage certificate number
was too old for their 2005 records—which was the year the K-1 visa holder alleged she
married. To further substantiate that the marriage certificate may have been
counterfeit, DHS records did not indicate the K-1 visa holder married or adjusted her
immigration status. We believe these examples illustrate SSA’s exposure to potential
SSN misuse. Therefore, we believe SSA should work with DHS to explore the
possibility of not granting work authorization to K-1 visa holders until they marry—thus,
limiting SSN assignment.

FIELD OFFICE PERSONNEL DID NOT ALWAYS COMPLY WITH ENUMERATION
POLICIES AND PROCEDURES WHEN PROCESSING SSN APPLICATIONS

Of the 250 K-1 SSN applications we reviewed, 17 (7 percent) contained compliance
errors. As such, we estimate personnel did not fully comply with SSA’s policies and
procedures when processing SSN applications for about 700 noncitizens with
K-1 fiancé visas. Occurrences of noncompliance included SSA field office personnel
(1) improperly assigning original SSNs when K-1 visa holders’ immigration status had
expired or would expire within 14 days and (2) incorrectly coding the citizenship/work
authorization status of K-1 applicants. 17

Field Office Personnel Improperly Assigned SSNs

SSA policy states field office personnel should not process an SSN application when an
individual’s DHS document or immigration status has expired or will expire within
                  18
14 calendar days. However, in 8 (3 percent) of the 250 sample SSNs we reviewed,
SSA personnel processed SSN applications for K-1 visa holders whose I-94s had
                                        19
expired or would expire within 14 days. As such, we estimate SSA improperly
assigned approximately 329 SSNs to K-1 visa holders during our 9-month audit period
(see Appendix C, Table 3).

Field office personnel used the Agency’s SS-5 Assistant and/or Modernized
Enumeration System (MES) to process the SSN applications. 20 We believe field office
personnel did not carefully examine the expiration date on I-94s to ensure K-1 visa
holders were eligible for an SSN. While SSA created an edit in its SS-5 Assistant to

17
 Of the 17 compliance errors, we determined that none corresponded with the potential overstayers
mentioned previously in the report.
18
   POMS, section RM 00203.720C. From this point forward, we will use the term “14-day expiration rule”
to indicate this policy.
19
  The I-94 expiration date is important because it indicates when the noncitizen’s lawful alien status
and/or DHS-granted work authorization ends.
20
   SSA’s SS-5 Assistant and MES are its SSN processing systems. The SS-5 Assistant, in effect, works
with MES and implements many of the Agency’s enumeration policies and procedures. SSA mandated
field office use of the SS-5 Assistant for most SSN applications on March 1, 2005.
Page 6 - The Commissioner


alert staff when immigration documents have expired or will expire within 14 days, this
edit is not functional for SSN applications that are pending and processed later. We
discussed the 14-day expiration rule and SS-5 Assistant’s edit limitation with SSA
representatives responsible for this system. They informed us that they would
determine whether implementing a corresponding edit is feasible. We realize SSA is
developing a new SSN processing system, the SSN Application Process, which
replaces the SS-5 Assistant and MES, and we believe SSA should consider a
corresponding edit in the new system design.

Field Office Personnel Incorrectly Coded SSN Applications
                                                             21
SSA policy requires that field office personnel ensure data they input in SSN
applications’ evidence fields correctly reflect, and are supported by, the evidentiary
documents applicants present. 22 However, we identified 9 (4 percent) instances from
the 250 SSNs tested in which field office personnel incorrectly coded evidence fields on
SSN applications. As such, we estimate SSA incorrectly coded approximately 371 SSN
applications during our audit period (see Appendix C, Table 4).

SSA’s SSN processing systems generate an evidence code (or IDN) on each
numberholder’s Numident record 23 based on data field office personnel input to
document the applicant’s citizenship category, place of birth and work authorization
status. Thus, the Numident’s system-generated evidence code reflects numberholders’
citizenship/work eligibility. After reviewing our sample SSN applications, we determined
the evidence SSA recorded on SSN applications did not always support the evidence
codes found on K-1 visa holders’ Numident records. 24 For example, some K-1 visa
holders did not provide SSA with documents indicating they had married and adjusted
their immigration status to permanent. However, their Numident evidence code
indicated they were permanent residents. Because there appears to be some
confusion regarding the evidence codes field office personnel should use for K-1 visa
holders—as evidenced by our audit findings—we believe SSA should periodically
review evidence codes on K-1 SSN applications to ensure accuracy. Furthermore, the
Agency should correct the Numident evidence code errors identified in this review.




21
  Field office personnel are required to enter data for (or code) the Primary Birth Certificate, Evidence of
Identity, Evidence of Age, Evidence of Citizenship/Alien Status and Permanent Resident Alien blocks in
SSN applications. The codes in these blocks should agree with the evidence documents listed in the
“Evidence Submitted” block.
22
     POMS, section RM 00202.230.
23
   SSA’s Numident houses records of original and replacement SSN cards issued over an individual’s
lifetime, as well as identifying information, such as date of birth, place of birth and parents’ names.
24
  For this particular analysis, we reviewed the most recent entry on each K-1 visa holder’s Numident for
our audit period.
Page 7 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We question whether SSA policy and practices for assigning SSNs to K-1 visa holders
who do not present a work authorization document create opportunities for SSN
misuse. We also question whether assigning SSNs to K-1 visa holders who may be in
the country for 90 days or less and who do not marry is prudent. We acknowledge that
law and DHS regulations authorize K-1 visa holders to work, thus permitting them to
obtain SSNs before they marry. However, we believe SSA should not assign SSNs to
K-1 visa holders until they marry and adjust their immigration status with DHS.

Despite SSA’s controls to prevent improper SSN assignment, it is at-risk for such
activity when field office personnel do not fully comply with policies and procedures.
We recognize SSA’s efforts cannot eliminate all SSN application processing errors.
Nonetheless, we believe SSA has a stewardship responsibility to ensure compliance
with all policies and procedures and improve the integrity of the enumeration process.

Accordingly, we recommend that SSA:

1. Seek clarification from DHS on whether K-1 visa holders must provide the Agency
   with an EAD as evidence of work authorization when applying for an SSN. If DHS
   specifies that K-1 visa holders must present an EAD as proof of work authorization,
   SSA should change its policies to reflect the requirement.

2. Discuss with DHS the feasibility of not granting work authorization to K-1 visa
   holders until they marry—thus, limiting SSN assignment.

3. Consider implementing an edit in the Agency’s SSN processing systems that would
   prevent assignment of SSNs for pending SSN applications when the noncitizen’s
   DHS document and/or status has expired or will expire within 14 days.

4. Periodically review K-1 SSN applications to ensure field office personnel accurately
   recorded evidence codes.

5. Correct K-1 visa holders’ Numident evidence code errors we identified in our
   sample. Under separate cover, we will provide SSA with further details regarding
   these individuals.

AGENCY COMMENTS AND OIG RESPONSE

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.
Page 8 - The Commissioner


OTHER MATTER
During our review of SSN applications, we found that field office personnel recorded
“none” in the I-94 expiration date field or left it blank for 15 (6 percent) of the
250 K-1 SSN applications we reviewed. As such, we estimate SSA did not record an
I-94 expiration date for about 618 K-1 SSN applications during our audit period (see
Appendix C, Table 5).

When there is no I-94 expiration date recorded in a K-1 SSN application, SSA cannot
determine whether the K-1 visa holder was eligible to receive an SSN at the time of
assignment. While we realize SSA must rely on DHS to record the expiration date on
the I-94, we believe omission of the expiration date in an SSN application defeats the
purpose of the Agency’s 14-day expiration rule. We encourage SSA to discuss the
absence of I-94 expiration dates with DHS—and relay SSA’s need for this information
to ensure proper SSN assignment.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sample Results and Projections
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DHS      Department of Homeland Security
INA      Immigration and Nationality Act
K-1      Classification for a Nonimmigrant Fiancé of a U.S. Citizen
MES      Modernized Enumeration System

POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
U.S.C.   United States Code


Forms

I-94     Arrival/Departure Record
SS-5     Application for a Social Security Card
                                                                      Appendix B

Scope and Methodology
To achieve our objective, we:

•   Reviewed applicable Federal laws, regulations and the Social Security
    Administration’s (SSA) policies and procedures for assigning original Social Security
    numbers (SSN) to noncitizens with a nonimmigrant fiancé (K-1) classification.

•   Visited two SSA field offices in California and interviewed SSA personnel from a
    Texas field office and the Brooklyn and Las Vegas National Card Centers. We
    spoke with representatives from SSA’s Office of Income Security Programs, who are
    familiar with the K-1 classification. We also spoke with representatives from the
    New York Regional Office’s Center for Automation concerning the SS-5 Assistant.

•   Obtained a data extract from SSA’s Modernized Enumeration System (MES)
    Transaction History File from April 1 through December 31, 2005. From this
    extract, we identified a population of 10,293 SSNs assigned to noncitizens with a
    K-1 classification and randomly selected and reviewed 250 SSN records.

•   Reviewed SSA’s Summary Earnings, MES and Numident files for our sample
    250 SSNs to determine whether the applicant worked or SSA documented a
    marriage.

•   Contacted the Department of Homeland Security (DHS) to determine each K-1 visa
    holder’s current immigration status. We provided DHS with the name, date of birth
    and I-94 (Arrival/Departure Record) number SSA recorded on each SSN applicant’s
    SS-5, Application for a Social Security Card.

•   Queried alien registration numbers or I-94 numbers, if available, via DHS’
    Systematic Alien Verification for Entitlements to determine current immigration
    status for the 250 sample K-1 visa holders.

•   Obtained DHS statistics regarding K-1 admissions to the United States during
    Calendar Year 2005. We also contacted DHS’ U.S. Immigration and Customs
    Enforcement component and requested data regarding K-1 visa fraud and/or status
    violators.

•   Obtained Department of State statistics regarding K-1 visa issuances for
    Calendar Year 2005. We also discussed K-1 visa fraud/misuse with
    Department of State.




                                           B-1
•   Contacted DHS and the Department of State to request the name and address of
    the U.S. citizens who filed petitions for our 250 K-1 visa holders.

•   Contacted State/county Bureaus of Vital Statistics, searched the Internet, or
    contacted local SSA field offices to verify marriages of 247 sample individuals. We
    contacted Bureaus of Vital Statistics for 247 sample items, instead of 250, because
    DHS granted asylum 25 to 3 K-1 visa holders.

•   Contacted the Department of Health and Human Services, Office of Child Support
    Enforcement, to determine whether Section 466(13) of the Social Security Act
    mandates that noncitizens who do not have an SSN and plan to marry a U.S. citizen
    must obtain an SSN before they apply for a license.

The SSA entities reviewed were the Offices of the Deputy Commissioner for Operations
and the Deputy Commissioner for Retirement and Disability Policy (formerly known as
the Deputy Commissioner for Disability and Income Security Programs). We conducted
this performance audit from November 2006 through September 2007 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




1
  DHS grants asylum to noncitizens who are already in the United States or at a port of entry and who are
found to be unable or unwilling to return to their country of nationality or to seek the protection of that
country because of persecution or a well-founded fear of persecution.


                                                    B-2
                                                                                   Appendix C

Sample Results and Projections
To assess the Social Security Administration’s (SSA) process for assigning Social
Security numbers (SSN) to noncitizens with K-1 fiancé visas, we obtained a data extract
of 10,293 original SSNs the Agency assigned to K-1 visa holders from April 1 through
December 31, 2005. From this population, we randomly selected a sample of
250 records to determine whether (1) the K-1 visa holder remained in the United States
beyond the date DHS authorized (overstayed their visa) and (2) field office personnel
complied with SSA’s enumeration policies and procedures when processing K-1 visa
holder SSN applications.

Table 1: K-1 Visa Holders Who Remained in the United States Beyond Their
         DHS-Authorized Stay (Overstayed Their Visa)
    Total Population of K-1 Visa Holders Assigned SSNs from
    April 1 through December 31, 2005                                                        10,293
    Sample Size                                                                                 250
    Number of Instances in Sample Where K-1 Visa Holders Remained in
    the United States Beyond Their DHS-Authorized Stay                                            9
    Estimate of Instances in Population Where K-1 Visa Holders
    Remained in the United States Beyond Their DHS-Authorized Stay                              371
    Projection – Lower Limit                                                                    196
    Projection – Upper Limit                                                                    635

Table 2: Aggregate Field Office Noncompliance with SSA Policies and
                    26
         Procedures
    Total Population of K-1 Visa Holders Assigned SSNs from
    April 1 through December 31, 2005                                                        10,293
    Sample Size                                                                                 250
    All Instances in Sample Where Field Office Personnel Did Not Comply
    With SSA Policies and Procedures                                                             17
    Estimate of All Instances in Population Where Field Office
    Personnel Did Not Comply With SSA Policies and Procedures                                   700
    Projection – Lower Limit                                                                    453
    Projection – Upper Limit                                                                  1,028



1
 This table accounts for both compliance issues we identified. See Tables 3 and 4 for the individual
compliance issues.


                                                   C-1
Table 3: Field Office Noncompliance: Improper SSN Assignment
Total Population of K-1 Visa Holders Assigned SSNs from
April 1 through December 31, 2005                                    10,293
Sample Size                                                             250
Number of Instances in Sample Where Field Office Personnel
Improperly Assigned SSNs                                                  8
Estimate of Instances in Population Where Field Office Personnel
Improperly Assigned SSNs                                                 329
Projection – Lower Limit                                                 166
Projection – Upper Limit                                                 584

Table 4: Field Office Noncompliance: Incorrectly Coded SSN Application
Total Population of K-1 Visa Holders Assigned SSNs from
April 1 through December 31, 2005                                    10,293
Sample Size                                                             250
Number of Instances in Sample Where Field Office Personnel
Incorrectly Coded K-1 Visa Holders’ SSN Application                       9
Estimate of Instances in Population Where Field Office Personnel
Incorrectly Coded K-1 Visa Holders’ SSN Application                      371
Projection – Lower Limit                                                 196
Projection – Upper Limit                                                 635

Table 5: No I-94 Expiration Date Recorded in SSN Applications
Total Population of K-1 Visa Holders Assigned SSNs from
April 1 through December 31, 2005                                    10,293
Sample Size                                                             250
Number of Instances in Sample Where Field Office Personnel Did Not
Record an Expiration Date for K-1 Visa Holders’ I-94s                    15
Estimate of Instances in Population Where Field Office Personnel
Did Not Record an Expiration Date for K-1 Visa Holders’ I-94s            618
Projection – Lower Limit                                                 386
Projection – Upper Limit                                                 932

All projections made at the 90 percent confidence level.




                                          C-2
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 21, 2008                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster      /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Assignment of Social Security Numbers to
           Noncitizens with Fiancé Visas" (A-08-07-17044)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ASSIGNMENT OF SOCIAL SECURITY NUMBERS TO NONCITIZENS
WITH FIANCÉ VISAS" (A-08-07-17044)


Thank you for the opportunity to review and comment on the draft report. We agree that
protecting the integrity of the Social Security number (SSN) is critical to our agency. We
appreciate the report’s acknowledgement that we are required by law to assign SSNs to aliens at
the time of their lawful admission to the United States either for permanent residence or under
authority of law permitting them to engage in employment in the United States. Our responses to
the specific recommendations are provided below.

Recommendation 1

Seek clarification from the Department of Homeland Security (DHS) on whether K-1 visa
holders must provide the Agency with an Employment Authorization Document (EAD) as
evidence of work authorization when applying for an SSN. If DHS specifies that K-1 visa
holders must present an EAD as proof of work authorization, we should change our policies to
reflect the requirement.

Response

We agree. We have already contacted DHS to ask if the guidance they provided us in 1998 and
1999 is still current; namely, that a K-1 fiancé is considered to be work authorized based on
either the I-94 or an EAD. We anticipate that a complete DHS response should be received by
the end of fiscal year (FY) 2008. If DHS advises that an EAD is required, we will update the
Program Operations Manual System (POMS) instructions.

Recommendation 2

Discuss with DHS the feasibility of not granting work authorization to K-1 visa holders until they
marry—thus, limiting SSN assignment.

Response

We agree. We have asked DHS if they are, in general, considering any revisions to their
regulations regarding work authorization for K-1 visa holders and, more specifically, if there is
any discussion to not grant work authorization until the K-1 fiancé marries. We anticipate that a
complete DHS response should be received by the end of FY 2008. If DHS decides not to grant
work authorization to a K-1 visa holder until he/she marries, we will work with DHS to
determine what immigration documents the spouse would have from DHS since his/her K-1
status would no longer be valid.




                                               D-2
Recommendation 3

Consider implementing an edit in the SSN processing systems that would prevent assignment of
SSNs for pending SSN applications when the noncitizen’s DHS document and/or status has
expired or will expire within 14 days.

Response

We agree. We are currently redesigning the Modernized Enumeration System to the new Social
Security Number Application Process (SSNAP) and plan to include in the SSNAP system edits
that would address this recommendation by not accepting the document or allowing processing
of the document if it has expired or will expire within 14 days.

Recommendation 4

Periodically review K-1 SSN applications to ensure field office personnel accurately recorded
evidence codes.

Response

We agree. We will review a sample of K-1 SSN applications on an annual basis to ensure field
office personnel accurately record evidence codes. We will conduct the first review in the
May-June 2009 timeframe.

Recommendation 5

Correct K-1 visa holders’ Numident evidence code errors we identified in our sample.

Response

We agree. We are taking the necessary action to correct the numidents for the cases identified in
the report.




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, 205-801-1650

   Theresa Roberts, Audit Manager, 205-801-1619

Acknowledgments

In addition to those named above:

   Neha Smith, Senior Auditor

   Susan Evans, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-08-07-17044.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External Relations (OER), and
Office of Technology and Resource Management (OTRM). To ensure compliance with policies and
procedures, internal controls, and professional standards, the OIG also has a comprehensive Professional
Responsibility and Quality Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                        Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
